           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  ADMINISTRATIVE COSTS CLAIMED
    BY THE MISSOURI DISABILITY
     DETERMINATION SERVICES

    July 2007    A-07-06-16098




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      July 12, 2007                                                  Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Kansas City

From:      Inspector General

Subject:   Administrative Costs Claimed by the Missouri Disability Determination Services
           (A-07-06-16098)


           OBJECTIVE

           Our objectives were to evaluate the Missouri Disability Determination Services
           (MO-DDS) internal controls over the accounting and reporting of administrative costs,
           determine whether costs claimed by the MO-DDS were allowable and properly
           allocated and funds were properly drawn, and assess limited areas of the general
           security control environment. Our audit included the administrative costs claimed by
           the MO-DDS during Fiscal Years (FY) 2004 and 2005.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies
           for the development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are performed by Disability Determination
           Services (DDS) in each State, Puerto Rico and the District of Columbia. Such
           determinations are required to be performed in accordance with Federal law and
           underlying regulations. 1 In carrying out its obligation, each DDS is responsible for
           determining claimants’ disabilities and ensuring that adequate evidence is available to
           support its determinations. To assist in making proper disability determinations, each




           1
               20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 - Michael W. Grochowski

DDS is authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
(ASAP) system to pay for program expenditures. Funds drawn down must comply with
Federal regulations 2 and intergovernmental agreements entered into by Treasury and
States under the Cash Management Improvement Act of 1990. 3

An advance or reimbursement for costs under the program must comply with the Office
of Management and Budget’s Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments. At the end of each quarter of the FY, each DDS is required to
submit a State Agency Report of Obligations for SSA Disability Programs (SSA-4513)
to account for program disbursements and unliquidated obligations. 4 The SSA-4513
reports expenditures and unliquidated obligations for personnel service costs, medical
costs, indirect costs, and all other nonpersonnel costs. 5

The MO-DDS is decentralized with six district offices located throughout the State and a
                                                   6
central office located in Jefferson City, Missouri. The Missouri Division of Vocational
Rehabilitation is the MO-DDS’ parent agency.

RESULTS OF REVIEW
Generally, the MO-DDS had effective controls over the accounting and reporting of
administrative costs and with the exception of one communication expense, the costs it
claimed during our audit were allowable and properly allocated. We also found that the
MO-DDS’ general security controls were effective except the DDS does not have a
security plan for the location that houses its AS/400 computer system. Lastly,
improvements are needed in inventory maintenance.




2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501 and 6503.
4
  SSA, Program Operations Manual System (POMS), DI 39506.201 and 202. POMS, DI 39506.200 B.4
provides, in part, that “Unliquidated obligations represent obligations for which payment has not yet been
made. Unpaid obligations are considered unliquidated whether or not the goods or services have been
received.”
5
    SSA, POMS, DI 39506.202.
6
 The MO-DDS’ district offices are located in Kansas City, St. Louis North, St. Louis South,
Cape Girardeau, Springfield and Jefferson City.
Page 3 - Michael W. Grochowski

Communication Expense

An invoice for communication expense was paid in excess of the correct amount by
$4,564. This occurred because parent agency staff incorrectly calculated the amount of
the invoice that was to be allocated to the MO-DDS. The parent agency agreed the
expense allocation on this invoice was incorrectly calculated. Federal regulations
provide, in part, that SSA “…will give the State funds…for necessary costs in making
                             7
disability determinations….” Since the expense was not for the benefit of SSA’s
disability programs it was not necessary. We recommend SSA instruct the MO-DDS to
refund $4,564 for the unallowable communication expense.

Security Plan

The MO-DDS does not have a security plan for the location that houses the AS/400
computer system. 8 The AS/400 computer system is located in a room within a
Missouri State office building in Jefferson City, Missouri. There are no MO-DDS or
parent agency staff located in this building. The AS/400 computer system supports
MO-DDS operations and contains sensitive information.

The MO-DDS’ district offices and central office connect to the AS/400 computer system
in making disability determinations for SSA; therefore, a disaster affecting this computer
room would impact all MO-DDS operations. As a result of not having a security plan,
there is a risk that critical business processes are not protected or will not recover timely
in the event of a disaster. A delay in creating a security plan could result in a longer
recovery period following a catastrophic event.

SSA instructions state, “Each DDS must establish and maintain a written DDS Security
      9
Plan.” As a result of our audit the MO-DDS stated it will work with the parent agency to
create a written security plan for the centralized computer system. We recommend
SSA assist the MO-DDS in the timely creation of a security plan for their centralized
computer system room.

Inventory

The MO-DDS did not maintain adequate equipment inventory records. We determined
that the inventory records were not accurate because various equipment was not at the
recorded location or not recorded in the inventory. For example, 23 items selected for
verification of existence at the MO-DDS’ central office were not found at the recorded
location and we identified other equipment that should have been on the inventory
listing. The failure to maintain complete inventory records hinders the detection of
stolen or misplaced equipment. According to SSA instructions, “The State is
responsible for maintenance and inventory of all equipment acquired whether

7
    20 C.F.R. §§ 404.1626 and 416.1026.
8
    The MO-DDS has security plans for their central and district offices.
9
    SSA, POMS, DI 39566.120.
Page 4 - Michael W. Grochowski

purchased through SSA or the State.” 10 The parent agency informed us that the
inaccuracies in the current inventory system occurred because inventory data from the
previous inventory system was transferred to the new system without verifying the
accuracy and completeness of the data.

The MO-DDS informed us that it has taken action to update its inventory records.
Specifically, a physical inventory of equipment at each of the MO-DDS’ central and
district offices has been completed including a reconciliation to State inventory records.
We did not independently verify the completeness or accuracy of the MO-DDS’
changes to its inventory records since the changes occurred after the end of our audit
fieldwork. Therefore, we recommend SSA verify the MO-DDS’ new inventory system is
                                       11
in compliance with SSA instructions.

CONCLUSION AND RECOMMENDATIONS

Generally, the MO-DDS had effective controls over the accounting and reporting of
administrative costs and with the exception of one communication expense, the costs it
claimed during our audit were allowable and properly allocated. We also found the
MO-DDS’ general security controls were effective except the DDS does not have a
security plan for the location that houses its AS/400 computer system. Lastly,
improvements are needed in inventory maintenance.

We recommend the SSA Regional Commissioner:

       1. Instruct the MO-DDS to refund $4,564 for the unallowable communication
          expense.
       2. Assist the MO-DDS in the timely creation of a security plan for the location that
          houses the AS/400 computer system.
       3. Verify the MO-DDS’ new inventory system is in compliance with SSA
          instructions.




10
     SSA, POMS, DI 39530.020.
11
     Id.
Page 5 - Michael W. Grochowski

AGENCY COMMENTS
In commenting on our draft report, SSA and the MO-DDS agreed with our
recommendations. See Appendices C and D respectively, for the full text of SSA’s and
MO-DDS’ comments.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – State Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
Act           Social Security Act
ASAP          Automated Standard Application for Payments
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
FY            Fiscal Year
MO-DDS        Missouri Disability Determination Services
MO-VR         Missouri Division of Vocational Rehabilitation
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSA 4513      State Agency Report of Obligations for SSA Disability Programs
SSI           Supplemental Security Income
Treasury      Department of the Treasury
U.S.C.        United States Code
                                                                         Appendix B

Scope and Methodology
SCOPE
To achieve our objective, we:

 •   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
     Security Administration’s (SSA) Program Operations Manual System and other
     criteria relevant to administrative costs claimed by the Missouri Disability
     Determination Services (MO-DDS), and the draw down of SSA program
     appropriations.

 •   Interviewed staff and officials at the Missouri Division of Vocational Rehabilitation
     (MO-VR) and the MO-DDS.

 •   Reviewed State policies and procedures related to personnel, medical services,
     and all other nonpersonnel costs.

 •   Evaluated and tested internal controls regarding accounting, financial reporting,
     and cash management activities.

 •   Reconciled State accounting records to the administrative costs reported by the
     MO-DDS on the State Agency Report of Obligations for SSA Disability Programs
     (SSA-4513) for Fiscal Years (FY) 2004 through 2005.

 •   Examined specific administrative expenditures (personnel, medical services, and all
     other nonpersonnel costs) incurred and claimed by the MO-DDS for FYs 2004 and
     2005 on the SSA-4513. We used statistical sampling to select expenditures to test
     for support of the medical service and all other nonpersonnel costs as discussed in
     the following Methodology section of this Appendix.

 •   Examined the indirect costs claimed by the MO-DDS for FYs 2004 through 2005.

 •   Compared the amount of SSA funds drawn for support of program operations to
     the expenditures reported on the SSA-4513.

 •   Determined whether selected funds from cancelled warrants were properly returned
     to SSA.

 •   Determined if unliquidated obligations were properly supported.

 •   Reviewed MO-DDS’ general security controls.



                                             B-1
We determined that the data provided by MO-VR and MO-DDS used in our audit was
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling it with the costs claimed on the SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We performed work at the MO-VR, MO-DDS, the Kansas City, Missouri and Chicago,
Illinois Offices of Audit. We conducted fieldwork from June 2006 through April 2007.
The audit was conducted in accordance with generally accepted government auditing
standards.

METHODOLOGY

SAMPLING METHODOLOGY

The sampling methodology encompassed the four general areas of costs reported on
the SSA-4513 (1) personnel, (2) medical, (3) indirect, and (4) all other nonpersonnel
costs. We obtained a data extract of all costs and the associated invoices for FYs 2004
through 2005 for use in statistical sampling. This was obtained from the accounting
systems used in the preparation of the SSA-4513.

Personnel Costs

We randomly selected 1 pay period in the most recent year under review. We then
selected a random sample of 50 regular employees for review and testing of the payroll
records.

For medical consultant costs, we also selected 1 pay period in the most recent year
under review. We then selected a random sample of 50 medical consultants for review
and testing of the payroll records.

Medical Costs

We sampled 100 items (50 items from each FY) using a stratified random sample of
medical cost based on the proportion of medical evidence of record and consultative
examination costs to the total medical costs claimed.

Indirect Costs

MO-DDS indirect costs are computed by applying a federally approved rate to a cost
base. 12 This methodology was approved by the United States Department of
Education, which is the Federal agency designated to negotiate and approve the
indirect cost rate.




12
  Total direct cost less items of equipment, alterations and renovations, flow through funds and the
portion of each sub-award in excess of $25,000 regardless of the period covered by the sub-award.
                                                   B-2
On the final SSA-4513s, the MO-DDS claimed indirect costs of $1,621,882 for FY 2004
and $1,574,109 for FY 2005. We reviewed the FY 2004 and 2005 indirect cost
calculations to ensure the correct rate was applied.

All Other Nonpersonnel Costs

We sampled 102 items (50 expenditures from FY 2004 and 52 from FY 2005) using a
stratified random sample. The random sample was based on the proportion of costs in
each of the cost categories to the total costs claimed.




                                        B-3
                  Appendix C

Agency Comments
To: Inspector General

From: Regional Commissioner Kansas City Region

Subject: Administrative Costs Claimed by the Missouri Disability Determination Services (A-07-
06-16098)- Response

We appreciate the opportunity to provide input on the draft report of the administrative audit for
fiscal years 2004 and 2005 conducted at the Missouri Disability Determination Services (DDS).
The region agrees with the findings and the recommendations outlined in the draft report. The
findings illustrate that the Missouri DDS has very good management internal controls in place to
ensure proper use of funds. However, the auditors identified three areas that required corrective
action or improved processes. Our response to the audit recommendations is outlined below.

Recommendations

1. Instruct the MO-DDS to refund $4,564 for the unallowable communication expense.

The Kansas City Region agrees to instruct the Missouri DDS to refund $4,564.00. We will request the
refund for the unallowable expense by July 16, 2007 with a response due by September 30, 2007.

2. Assist the MO-DDS in the timely creation of a security plan for the location that houses the AS/400
computer system.

The Kansas City Regional Office will work with the Missouri DDS and the State of Missouri to prepare a
security plan for the AS/400 computer system, with a tentative completion date of June 30, 2008. Since
the facility that houses the AS/400 also accommodates other state systems, we will work closely with
state officials to ensure our plan effectively protects SSA's system, and does not create obstacles for the
other state agencies using the same facility. Coordinating the plan development and implementation will
likely take longer than if we were just coordinating with a DDS. The DDS has already started discussions
with state officials to prepare a plan.

3. Verify the MO-DDS’ new inventory system is in compliance with SSA instructions.

The Kansas City Regional Office will verify that the inventory control is in compliance with SSA
instructions. The DDS has created a spreadsheet to record, update, and monitor all DDS equipment state-
wide. The DDS is currently updating the inventory list and the regional office will verify compliance by
September 30, 2007.

The auditors from the Kansas City Region do an excellent job of communicating their needs and
providing feedback during the course of the audit process and I appreciate their responsiveness to the
DDS and the regional office. If you have questions, please contact me at 816-936-5700. If your staff
needs additional assistance or information, they may contact Janet Shivers, Disability Program
Administrator for Missouri, at 816-936-5680.

                                                   /s/

                                       Michael W. Grochowski
                        Appendix D

State Agency Comments
Comments to Audit Repor t A – 07 - 06 -16098
Administr ative Costs Claimed by the M issour i Disability
Deter minations Section


Communications Expense

The MO – DDS has been credited in the amount of $4,564 for the un-allowed communication
expense. Documentation of the transaction is attached. Procedures are in place to assure
expenses are charged to the correct grant.

Secur ity Plan

The AS400 used in the operation of the DDS program is housed in the parent agency’ s computer
room within a State office building. This location has more adequate physical security measures
than the Central office and provides a means to produce back up files. These back up files are
rotated to the DDS Central office off-site on a schedule to assure continuity of operations should
a catastrophic event occur. A security plan for the location housing the AS/400 computer system
is being coordinated through the Office of Administration. Expect completion of the security
plan within the next 60 days. A copy of the plan will be made available upon its execution.

I nventor y

A physical inventory of equipment at each of the MO – DDS’ central and district offices is
complete. An accurate account of state inventory includes: faxes, copiers, and postage
equipment. Reconciliation of state inventory records has also been updated to reflect current
inventory. In addition to the state inventory, a physical inventory of all federal equipment
including computer CPU's/monitors, printers, IVT equipment etc. is also maintained. Our
state/federal inventory records are consistent with SSA guidelines identified in the POMS
(program manual). Procedures are in place to keep inventory records current. The SSA Regional
DPA has verified current inventory records during a recent on-site visit.


Dr. Jeanne Loyd, Assistant Commissioner
Department of Elementary and Secondary Education
Division of Vocational Rehabilitation
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division, (816) 936-5591

   Ken Bennett, Information Technology Specialist, (816) 936-5593

Acknowledgments

In addition to those named above:

   Doug Kelly, Auditor-in-Charge

   Sherman Doss, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-07-06-16098.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
